No.
a
In the Supreme Court of the United States

JOSE JESUS CRUZ

Petitioner,

v.
UNITED STATES OF AMERICA,

Respondent.

CERTIFICATE OF SERVICE

FEES

I, Carey C. Bhalla, counselor for Petitioner appointed pursuant to the
Criminal Justice Act, certify that on March 5, 2020, the original of the petition for
writ of certiorari, certificate of word count and motion to proceed in forma pauperis in
the above-captioned case were deposited with Federal Express in Albuquerque, New
Mexico, properly addressed to the Clerk of the United States Supreme Court and
within the time for filing said petition for writ of certiorari.

I further certify that the petition for writ of certiorari and motion to proceed in
forma pauperis were served upon the following counsel:

Elizabeth Prelogar

Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W., Room 5616

Washington, DC 20530

SupremeCtBriefs@usdoj.gov

Fred J. Federici
United States Attorney

Office of the United States Attorney

District of New Mexico
201 8rd Street NW
Albuquerque, NM 87102

I further certify that all parties required to beserved have been served

/ 7

   

A

Carey C. Bhalla

Counsel of Record via CJA

Law Office of Carey C. Bhalla, LLC
1306 Rio Grande Blvd. NW
Albuquerque, New Mexico 87104
carey@bhallalaw.com

(505) 508-5589

ii
